                                            UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


AUD-FM-IB-14-34                                  Office of Audits                                  September 2014




   Audit of Radio Free Europe/Radio Liberty
          After-employment Benefits




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                                            UNCLASSIFIED
                                                            United States Department of State
                                                            and the Broadcasting Board of Governors

                                                            Office of Inspector General

                                              PREFACE

       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report addresses compliance with Federal and Department regulations for
contracting officers and specific requirements for contracting officers not to exceed their
delegated procurement authorities. The report is based on interviews with employees and
officials of relevant agencies and institutions, direct observation, and a review of applicable
documents.

       OIG contracted with the independent public accountant Kearney & Company, P.C., to
perform this audit. The contract required that Kearney & Company perform its audit in
accordance with guidance contained in the Government Auditing Standards, issued by the
Comptroller General of the United States. Kearney & Company’s report is included.

       Kearney & Company concluded that the costs related to Radio Free Europe/Radio
Liberty’s after-employment benefits provided to its U.S. and overseas employees were generally
in accordance with Federal grant regulations and its grant agreement with BBG. Although
Kearney & Company concluded that the plans were in accordance with requirements, BBG did
not have sufficient oversight of the grantee’s after-employment plans.

       OIG evaluated the nature, extent, and timing of Kearney & Company’s work; monitored
progress throughout the audit; reviewed Kearney & Company’s supporting documentation;
evaluated key judgments; and performed other procedures as appropriate. Kearney & Company’s
findings, and the recommendations contained in the report were developed on the basis of the
best knowledge available and were discussed in draft form with those individuals responsible for
implementation. OIG’s analysis of management’s response to the recommendations has been
incorporated into the report. OIG trusts that this report will result in more effective, efficient,
and/or economical operations.

        I express my appreciation to all of the individuals who contributed to the preparation of
this report.



                                              Norman P. Brown
                                              Assistant Inspector General
                                               for Audits
Address correspondence to: U.S. Department of State, Office of Inspector General, Washington, D.C. 20522-0308

                                          UNCLASSIFIED
                                                       1701 Duke Street, Suite 500, Alexandria, VA 22314
                                                       PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com




Audit of Radio Free Europe/Radio Liberty After-Employment Benefits



Office of Inspector General
U.S. Department of State
Washington, D.C.

Kearney & Company, P.C. (referred to as “we” in this letter), has performed an audit of Radio
Free Europe/Radio Liberty after-employment benefits. This performance audit, performed under
Contract No. SAQMMA09D0002, was designed to meet the objective identified in the report
section titled “Objective” and further defined in Appendix A, “Scope and Methodology,” of the
report.

We conducted this performance audit in accordance with Government Auditing Standards, issued
by the Comptroller General of the United States. We communicated the results of our
performance audit and the related findings and recommendations to the Office of Inspector
General.

We appreciate the cooperation provided by personnel at the Broadcasting Board of Governors
and Radio Free Europe/Radio Liberty during the audit.




Kearney & Company, P.C.
Alexandria, Virginia
September 15, 2014




                                     UNCLASSIFIED
                            UNCLASSIFIED


Acronyms
BBG        Broadcasting Board of Governors
OCFO       Office of the Chief Financial Officer
OIG        Office of Inspector General
OMB        Office of Management and Budget
RFE/RL     Radio Free Europe/Radio Liberty
TCN        Third Country National




                            UNCLASSIFIED
                                                          UNCLASSIFIED


                                                       Table of Contents
Section                                                                                                                                  Page

Executive Summary .........................................................................................................................1

Background…. .................................................................................................................................2

Objective……. .................................................................................................................................5

Audit Results ..................................................................................................................................6

           Radio Free Radio/Radio Liberty After-Employment Benefits Were Generally Allowable
           but Were Not Fully Funded .................................................................................................6

List of Recommendations……. .....................................................................................................23

Appendices
      A. Scope and Methodology................................................................................................25
      B. Excerpts From Title 5 of the United States Code..........................................................28
      C. Broadcasting Board of Governors Response ................................................................29
      D. Radio Free Europe/Radio Liberty Response .................................................................32




                                                          UNCLASSIFIED
                                       UNCLASSIFIED



                                    Executive Summary

       After-employment benefits may have significant long-term financial implications for
organizations. Radio Free Europe/Radio Liberty (RFE/RL), a grantee funded by the
Broadcasting Board of Governors (BBG), offers several types of after-employment benefits to its
U.S. and overseas employees. The after-employment benefits offered by RFE/RL to its
employees do not have a direct impact on the Federal Government’s financial position. However,
the RFE/RL benefits are part of the Government’s costs in using a grantee to accomplish goals
and so must be considered when developing a grant agreement.

        The objective of this audit was to determine to what extent costs related to RFE/RL’s
after-employment benefits were allowable according to Federal grant regulations and the grant
agreement. An external audit firm, Kearney & Company, P.C. (Kearney), acting on behalf of the
Office of Inspector General (OIG), performed this audit.

         Kearney concluded that the costs related to RFE/RL’s after-employment benefits
provided to its U.S. and overseas employees were generally in accordance with Federal grant
regulations and its grant agreement with BBG. Kearney also found that the severance plans for
both U.S. and overseas employees were allowable. Although Kearney concluded that the plans
were in accordance with requirements, Kearney found that RFE/RL had an unfunded liability of
approximately $88 million, as of September 30, 2013, related to after-employment benefits. BBG
did not have sufficient oversight of RFE/RL’s after-employment plans. Specifically, BBG did
not sufficiently monitor RFE/RL, adequately define roles and responsibilities related to grant
oversight, and maintain adequate internal communications related to the grantee. Further, the
format of financial reports required from RFE/RL did not include information on unfunded
liabilities, and BBG had not performed benefit comparability studies in a complete or timely
manner.

         Because it was not effectively monitoring the financial condition of RFE/RL, BBG was
not appropriately managing risks. The RFE/RL unfunded liability does not represent a legal
liability to the Federal Government, and Federal Government officials have indicated that the
Government will not provide additional funding to cover any shortfalls. However, the Federal
Government may elect to provide additional funding to avoid the unfavorable outcome of
discontinuing benefits.

        OIG made 10 recommendations intended to improve BBG’s oversight of RFE/RL’s
financial operations. In July 2014, OIG provided a draft of this report to BBG and RFE/RL. In its
August 19, 2014, response (see Appendix C) to the draft report, BBG concurred with
Recommendations 1, 2, and 4–10 and partially concurred with Recommendation 3. Although no
recommendations were addressed to it, RFE/RL provided comments to the draft report, which
are presented in Appendix D. Based on the comments received, OIG considers
Recommendations 1, 2, and 4–10 resolved, pending further action, and Recommendation 3
unresolved. BBG’s responses to the recommendations and OIG’s replies to the responses are
presented after each recommendation.
                                                1

                                       UNCLASSIFIED
                                                UNCLASSIFIED


                                                  Background
        An after-employment benefit is a form of compensation provided to former employees as
part of an overall pay and benefits package. After-employment benefits may have significant
long-term financial implications for organizations that require consideration. The types of
after-employment benefits offered can vary significantly depending on the organization’s goals
and the environment in which it operates. Some common types of after-employment benefits
include the following:

            Defined Benefit Retirement Plans – A plan in which an employer commits to pay its
             employees a specific amount for life beginning at retirement, usually through periodic
             annuities. For example, the annuity component of the Federal Employees Retirement
             System offered by the Federal Government is a defined benefit plan.
            Defined Contribution Retirement Plans – A plan in which an employee receives an
             amount based on the total sum of employee and employer contributions during the
             period of employment. The Thrift Savings Plan offered by the Federal Government
             and 401(k) plans are examples of defined contribution plans.
            Severance Plans – Compensation paid to an employee when the employee leaves
             employment. Involuntary severance is paid to an employee because of layoffs or job
             elimination. Voluntary severance is paid to an employee who chooses to leave an
             organization, and voluntary severance is required under labor laws in some overseas
             countries.
            Post-Retirement Medical Plans – An arrangement under which an employer covers all
             or part of the cost of providing health insurance to a prior employee.
            Post-Retirement Life Insurance Plans – A type of insurance that provides for payment
             of an amount to a beneficiary when a plan participant dies.

       The Federal Government offers several types of after-employment benefits to its
employees and reports significant liabilities related to these plans. For example, as of
September 30, 2013, the Federal Government reported more than $3.4 billion in liabilities related
to pension plans and $1.1 billion in liabilities related to post-retirement health plans.1

        Organizations to which Federal agencies provide grants2 may offer their employees
after-employment benefits. The after-employment benefits offered by grantees to employees do
not have a direct impact on the Federal Government’s financial position. However, the benefits
provided by the grantees are part of the Government’s costs in using grantees to accomplish
goals and so must be considered by the Government when it is reaching agreements with grant
organizations. Office of Management and Budget (OMB) guidance (the Code of Federal

1
 2013 Financial Report of the United States Government.
2
 A grant is an award of financial assistance, the principal purpose of which is to transfer a thing of value from a
Federal agency to a recipient to carry out a public purpose of support or stimulation. A grant is different than a
contract in that a contract is used to acquire property or services for the Federal Government's direct benefit or
use.
                                                           2

                                                UNCLASSIFIED
                                               UNCLASSIFIED

Regulations [CFR])3 states that “the Federal awarding agency must manage and administer the
federal award in a manner so as to ensure that Federal funding is expended and associated
programs are implemented in full accordance with U.S. statutory and public policy
requirements.” To comply with this guidance, a Federal agency that provides grants must be
aware of the impact its grantee’s policies, specifically, its benefit plan offerings, could have on
the grantee’s operations and its ability to operate within the confines of its current funding.

Broadcasting Board of Governors

         BBG is an independent Federal agency that oversees all U.S. Government-supported,
civilian international broadcasting. Its mission is to inform, engage, and connect people around
the world in support of freedom and democracy via radio, television, and the Internet. The Board
of Governors that oversees BBG is a nine-member bipartisan body consisting of eight private
citizens appointed by the President and the Secretary of State (ex officio). The Board sets the
priorities and the overall strategic direction of U.S. international broadcasting. BBG provides
more than one-third of its budget to three grantees that develop news content and provide other
key services.

       BBG has the responsibility to monitor and oversee its grantees. At a minimum, BBG
should maintain documentation of its review and monitoring of each grantee to ensure
compliance with the terms and conditions of the grant agreement and Federal regulations.
According to BBG’s Grantee Handbook, information and activities that support grantee
monitoring include “reports, as well as interaction with the grantee through meetings, site visits,
telephone calls, written correspondence or audits.”

Radio Free Europe/Radio Liberty

        BBG establishes an annual grant with RFE/RL to provide news and information
programming. RFE/RL broadcasts more than 1,000 hours of programming each week to more
than 23 million people using 28 different languages in 21 countries, including Iran, Iraq,
Afghanistan, Pakistan, and Russia. Under Internal Revenue Service rules,4 RFE/RL is a private,
nonprofit Section 501(c)(3) corporation. U.S. public law5 states, “the Board of Directors of
RFE/RL, Incorporated, shall consist of the members of the Broadcasting Board of Governors . . .
and of no other members.” By law, BBG’s Board of Governors is required to also be the Board
of Directors for RFE/RL. This “mirror” board between the two entities is intended to act as a
control to ensure monitoring and oversight of granted funds.




3
  2 CFR § 200.300, “Statutory and national policy requirements.”
4
  Section 501(c)(3) of the Internal Revenue Code establishes the criteria for qualifying as a tax-exempt organization.
To be exempt from taxation on earnings, an organization cannot be organized to operate for the benefit of any
private interests, and no part of the organization’s net earnings can be for the benefit of a private shareholder.
RFE/RL operates to carry out the Federal Government’s international broadcasting mission and has no private
shareholders as beneficiaries to its funds.
5
  U.S. International Broadcasting Act of 1994 (Pub. L. No. 103-236, § 308).
                                                          3

                                               UNCLASSIFIED
                                             UNCLASSIFIED

          RFE/RL was created in 1949 and went on the air for the first time on July 4, 1950, with a
broadcast to Czechoslovakia.6 From 1951 to 1995, RFE/RL was headquartered in Munich,
Germany. In 1994, the U.S. Government decided to reorganize and relocate RFE/RL, and
Congress approved a relocation of the RFE/RL headquarters to Prague, Czech Republic, where it
is still located. RFE/RL also maintains a corporate office in Washington, DC. In addition,
RFE/RL has 19 service bureaus that operate in other overseas locations.

        In FY 2013, BBG provided $92 million in appropriated funds to finance RFE/RL
operations. According to the grant agreement, RFE/RL “may use the Grant Funds solely for
planning and operating expenses related to international broadcasting and administration
thereof,” and BBG is required to “conduct an annual review to measure Grantee’s performance
in achieving the purposes of this Agreement and compliance with its terms.”

        RFE/RL Staffing Levels and After-employment Plans

       RFE/RL provides after-employment benefits to its employees. During FY 2013, RFE/RL
had 945 employees or staff eligible for after-employment benefits. Approximately 18 percent
were U.S. employees, 13 percent were Third Country National (TCN) employees, and 69 percent
were overseas employees or staff.7 A breakdown by demographic categories is provided in
Table 1.

Table 1. RFE/RL Current Employees and Staff by Demographic Category
                         Employee
       Demographic        Count                           Definition
 U.S. Employees                     U.S. citizens or U.S. Green-card holders who work
                           174
                                    under U.S. employment agreements.
 TCNs                               People who work in a country other than the one in
                           120      which they hold citizenship. TCNs work under
                                    U.S. employment agreements.
 Overseas Employees at              Czech citizens working in Prague. These employees
                           215
 Headquarters                       work under local employment agreements.
 Overseas Staff at                  Locally employed staff working in one of RFE/RL’s
 bureaus                   436      19 bureaus. Overseas staff work under local
                                    employment agreements.
 Total Employees and
                           945
 Staff
Source: RFE/RL Human Resource Director.

        RFE/RL offers several after-employment pension plans to compensate its employees and
retirees depending on the demographic of the employee, and it also provides certain

6
 Czechoslovakia was dissolved peacefully on January 1, 1993, into the Czech Republic and the Slovak Republic.
7
 In addition to having full-time employees, RFE/RL contracts with approximately 700 freelance journalists as
needed. Freelance journalists are not considered RFE/RL employees and are not eligible for after-employment
benefits.
                                                       4

                                             UNCLASSIFIED
                                                UNCLASSIFIED

post-retirement health care and life insurance benefits for U.S. and TCN employees, as shown in
Table 2.

          Table 2. RFE/RL After-employment Plans and Eligibility
                           Plan Name                  Number of People Eligible for
                                                          or Participating in Plan
           U.S. Defined Contribution Plan            294 participating employees
           U.S. Post-Retirement Health and Life Plan 656 participating employees and
                                                     retirees
           U.S. Severance Plan                       294 eligible employees
           Czech Defined Contribution Plan           215 participating employees
           Czech Severance Plan                      215 eligible employees
           German Defined Benefit Plan (Closed)      754 participating retirees
           Overseas Bureau Severance Plans           436 eligible staff
          Source: RFE/RL Human Resource Director.


          Accounting for RFE/RL After-employment Benefits

         To better reflect the financial impact of after-employment benefits, accounting standards
require organizations to report a liability on their financial statements. Specifically, an
organization is required to “recognize in its statement of financial position an asset for a plan's
overfunded status or a liability for a plan's underfunded status.”8 For FY 2013, RFE/RL reported
more than $284 million in liabilities for two of its after-employment plans. These liabilities were
partially offset by assets held in reserve to cover the future after-employment benefits, leaving an
unfunded liability for FY 2013 of $88 million. RFE/RL’s FY 2013 liability, assets, and unfunded
liability for after-employment benefits are shown in Table 3.

Table 3. FY 2013 Unfunded Liability Related to After-employment Benefits (in thousands)
             Plan Name                   Plan Liability             Offsetting Assets    Unfunded Liability
    German Pension Plan                         $162,760                      $161,325                    $1,435
    Post-retirement Health and
    Life Insurance                               122,088                        35,187                 86,901
                          Total                 $284,848                      $196,512                $88,336
Source: RFE/RL Financial Statements and FY 2013 Actuarial Report.

                                                    Objective
        The objective of this audit was to determine to what extent costs related to RFE/RL’s
after-employment benefits were allowable according to Federal grant regulations and the grant
agreement.




8
 Financial Accounting Standards Board, Accounting Standards, Codification 715, “Compensation–Retirement
Benefits,” and Codification 958, “Not-for-Profit Entities.”
                                                           5

                                                UNCLASSIFIED
                                              UNCLASSIFIED


                                               Audit Results
Radio Free Europe/Radio Liberty After-employment Benefits Were Generally Allowable
but Were Not Fully Funded

        Kearney concluded that the costs related to RFE/RL’s after-employment benefits
provided to its U.S. and overseas employees were generally in accordance with Federal grant
regulations and its grant agreement with BBG. Specifically, the aggregation of the retirement
benefits provided to U.S. employees was less generous than the benefits provided to Federal
Government employees, and retirement benefits provided to employees overseas were either
approved by Congress or conformed with local labor laws and prevailing practice. Kearney also
found that the severance plans for both U.S. and overseas employees were allowable. Although
Kearney concluded that the plans were in accordance with requirements, Kearney found that
RFE/RL had an unfunded actuarial liability of approximately $88 million as of September 30,
2013, related to after-employment benefits. The $88 million unfunded actuarial liability is
projected based upon actuarial assumptions to estimate future spending related to
after-employment benefits and fluctuates annually. Kearney also found that BBG did not have
sufficient oversight of RFE/RL’s after-employment plans. Specifically, BBG did not sufficiently
monitor RFE/RL. Kearney further found that BBG did not adequately define roles and
responsibilities related to grant oversight and did not have adequate internal communications
related to this grantee. In addition, the format of financial reports required from RFE/RL did not
include information on unfunded liabilities, and BBG had not performed benefit comparability
studies in a complete or timely manner.

         Because it was not effectively monitoring the financial condition of RFE/RL, BBG was
not appropriately managing risks. The RFE/RL unfunded liability does not represent a legal
liability to the Federal Government, and Federal Government officials have indicated that the
Government will not provide additional funding to cover any shortfalls. However, the Federal
Government may elect to provide additional funding to avoid the unfavorable outcome of
discontinuing benefits.

After-employment Benefits Provided to U.S. Employees Were Allowable

        BBG’s grant agreement9 with RFE/RL stated, “No grant funds may be used . . . to pay
any salary or other compensation,10 or enter into any contract providing for the payment of salary
or compensation in excess of the rates established for comparable positions under Title 5 of the
United States Code.”11 Title 5 of the United States Code provides details on after-employment
benefits offered to Federal employees (see Appendix B for details on the provisions in Title 5
that were considered during the audit). In effect, RFE/RL is limited to offering after-employment


9
  A grant agreement is the legal contract which governs the funding relationship between an agency and a grantee.
As such, the grant agreement is the means by which BBG establishes guidelines, criteria, and constraints for
RFE/RL.
10
   After-employment benefits are considered a form of compensation.
11
   Grant agreement between BBG and RFE/RL, art. VII, sec. (f)(1), Jan. 2012.
                                                         6

                                              UNCLASSIFIED
                                              UNCLASSIFIED

benefits to U.S. employees at a rate that is less than or equal to the benefits that are offered to
Federal employees.

        Kearney compared the benefits provided by RFE/RL to U.S. employees at retirement, as
well as severance benefits, with benefits provided by the Federal Government12 and concluded
that the benefits provided by RFE/RL, in the aggregate, did not exceed the benefits provided
under Title 5 of the United States Code. Therefore, the after-employment benefits provided by
RFE/RL to U.S. employees were allowable.

        Retirement Benefits for U.S. Employees

        RFE/RL officials stated that the after-employment benefits provided to U.S. employees
were developed as a package rather than as separate benefits. Although Kearney noted specific
RFE/RL benefits that were more favorable than Federal equivalents, when aggregated as a total
benefit package, Kearney concluded that the retirement benefits provided to RFE/RL’s U.S.
employees were less favorable than the Federal benefits provided.

        RFE/RL offered two types of retirement benefits to U.S. employees: a defined
contribution plan and a health and life insurance plan. Beginning in July 1995,13 RFE/RL offered
U.S. employees14 a defined contribution plan. Kearney compared the details of this defined
contribution plan with the benefits provided to U.S. Government employees as part of the Thrift
Savings Plan, which is also a defined contribution plan. Kearney found that RFE/RL offered up
to 9.5 percent in matching funds while the Government offered only up to 5 percent in matching
funds for its employees. Although the amount of available matching funds was more generous
for RFE/RL, Federal Government employees under the Federal Employees Retirement System
also received a defined benefit plan that pays 1 percent of salary per year of service as an
annuity. RFE/RL’s plan did not include a defined benefit component. Kearney’s actuarial
specialist estimated that the combined service cost to the Government for the defined
contribution plan and the defined benefits plan was approximately 20.6 percent of total
employees’ salaries. This benefit service cost exceeded the 9.5 percent of service cost provided
to RFE/RL employees.

        RFE/RL’s post-retirement health and life insurance plans had been offered since
July 1995.15 RFE/RL offered two distinct plans based on where the retired employee lived—
within the United States or overseas. The plans were considered to be a secondary insurance to
Medicare for employees in the United States and primary insurance for those employees living



12
   For the Federal Government benefits, Kearney used benefits provided under the Federal Employees Retirement
System. Kearney did not consider benefits provided by the Civil Service Retirement System, as this plan was closed
to new entrants in 1987.
13
   Prior to July 1995, RFE/RL offered its U.S. employees a defined benefit plan. RFE/RL closed this plan by
entering into a contract with a third party that resulted in no liability for RFE/RL. RFE/RL replaced the defined
benefit plan with the defined contribution plan.
14
   The same plan is offered to RFE/RL’s TCN employees.
15
   RFE/RL uses third-party insurance providers to administer the health and life insurance benefits.
                                                        7

                                              UNCLASSIFIED
                                              UNCLASSIFIED

overseas.16 Kearney compared the post-retirement health and life insurance plans offered by
RFE/RL with similar plans offered to Federal retirees as part of the Federal Employees Health
Benefits plan17 and the Federal Employees Group Life Insurance plan.

        As of FY 2013, RFE/RL paid between 85 and 91 percent of the health plan premiums,
and the retiree paid between 9 and 15 percent.18 Comparatively, the Federal Government paid
about 75 percent of the premiums, and employees paid the remaining 25 percent. Kearney also
found that Federal employees were required to pay higher copayments for the same or similar
services as those offered under the RFE/RL plan ($20 compared with $10), and Federal
employees had larger out-of-pocket expenses. Based on the factors analyzed, Kearney concluded
that the RFE/RL health plans were more generous than the Federal equivalent.

         RFE/RL’s life insurance plan provided that a participant’s beneficiary will receive a flat
$10,000 benefit payment.19 Kearney compared the RFE/RL benefits with those of the Federal
Employees’ Group Life Insurance Standard Option for Federal retirees.20 Under this plan, a
Federal participant’s beneficiary will receive an amount equal to the participant’s annual salary
plus $2,000 (rounded to the nearest $1,000). The benefit is reduced 2 percent monthly beginning
at retirement until a minimum benefit of 25 percent is reached. Kearney analyzed the plans and
concluded that the benefits offered by RFE/RL were less generous than the Federal plan.

        Because in the aggregate the benefits provided by RFE/RL to its U.S. employees did not
exceed the benefits provided under Title 5 of the United States Code, Kearney concluded that the
benefits were allowable.

        Severance Pay for U.S. Employees

        RFE/RL offered severance pay to U.S. employees who were separated involuntarily as a
result of a reduction in force or job elimination. The U.S. Government also offered severance pay
to its employees for involuntary separations. Kearney compared the details of the RFE/RL
severance plan with the benefits provided to U.S. Government employees and found the two
plans to be the same. Both severance plans provide an amount equal to 1 week of pay for the first
10 years of service, 2 weeks of pay for the next 10 years of service, and 25 percent of 1 week of
pay for each 3 months beyond the final full year of service. The maximum benefit payment is 52
weeks of pay.



16
   RFE/RL officials indicated that these plans are secondary insurance for certain retirees living overseas who are
covered by other health and life insurance plans, such as their country’s social insurance or other equivalent.
17
   For the Federal Government comparative plan, Kearney used the Blue Cross, Blue Shield Standard Option benefit
schedule, which is the most common plan used by Federal retirees.
18
   Until 2010, RFE/RL was paying 100 percent of the premiums for retirees (not including dependents).
19
   Until 2011, RFE/RL’s life insurance plan provided that the participant’s beneficiary would receive an amount
equal to the participant’s annual salary reduced by 10 percent each year beginning at retirement until a minimum
benefit of $10,000 was reached. According to RFE/RL officials, only a limited number of retirees remain under this
benefit calculation.
20
   This plan is the most common plan selected by Federal retirees.
                                                         8

                                              UNCLASSIFIED
                                              UNCLASSIFIED


After-Employment Benefits Provided to Overseas Employees and Staff Were Allowable

        After-employment benefit plans offered to overseas employees or staff are
governed by standards and guidance for grantees established by OMB,21 which is cited in
the grant agreement. The guidance is based on prevailing practice and specifically states
that compensation for overseas employees or staff “will be considered reasonable to the
extent that it is comparable to that paid for similar work in the labor market in which the
non-Federal entity competes for the kind of employees involved.”

        RFE/RL operates its Headquarters in the Czech Republic and also has 19 bureau offices
overseas that identify and report news stories.22 RFE/RL engaged a law firm familiar with
employment law and practices for each of the countries in which RFE/RL operates to prepare
Employment Agreements that comply with local legal requirements and prevailing practice. The
Employment Agreement between RFE/RL and the staff governed the benefits paid to the local
staff. Kearney obtained sample Employment Agreements from each country where RFE/RL
operates and summarized the after-employment benefits offered, as detailed in Table 4.




21
   Title 2, Code of Federal Regulations, Chapters I and II, Part 200, Uniform Administrative Requirements, Cost
Principles, and Audit Requirements for Federal Awards.
22
   RFE/RL’s Headquarters were formerly in Germany, but that office has been closed since 1995.
                                                         9

                                              UNCLASSIFIED
                                               UNCLASSIFIED


          Table 4. After-Employment Benefits Provided by Country
                        Country                             After-employment Benefits
                                                   Defined Contributions Plan and
            Czech Republic                         Involuntary Severance
            Germany                                Defined Benefits Plan (closed)
            Kazakhstan                             None
            Iraq                                   None
            Azerbaijan                             Involuntary Severance
            Serbia                                 Involuntary Severance
            Kyrgyz Republic                        Involuntary Severance
            Moldova                                Involuntary Severance
            Tajikistan                             Involuntary Severance
            Pakistan                               None
            Afghanistan                            None
            Ukraine                                Involuntary Severance
            Russia                                 Involuntary Severance
            Montenegro                             Involuntary Severance
            Kosovo                                 None
            Bosnia and Herzegovina                 Involuntary Severance
            Macedonia                              Involuntary Severance
            Georgia                                Involuntary Severance
            Iran                                   U.S. Plan or Czech Plan*
            Armenia                                Involuntary Severance
            Belarus                                None
           *Bureau staff are based in the Czech Republic. Thirty-eight of 49 staff are U.S. employees or TCNs
           and are under U.S. labor law. The remaining 11 employees are Czech citizens and are under Czech
           labor law.
           Source: Sample employment agreements provided by RFE/RL.

        Kearney compared the benefits provided by RFE/RL in its two overseas retirement plans
and its severance benefits with benefits provided under prevailing practice for countries overseas
and concluded that each of the after-employment benefits was generally consistent with those of
prevailing practice in the countries in which RFE/RL operates. Therefore, the after-employment
benefits provided by RFE/RL to overseas employees or staff were allowable.

       Defined Contribution Plan for Czech Citizens

        RFE/RL offers supplemental pension insurance to its Czech employees in the form of a
defined contribution plan. Czech supplemental pension insurance is a voluntary part of the Czech
social insurance system. All Czech citizens who register for supplemental pension insurance and
open an account with a state-approved provider are eligible to participate. RFE/RL contributed
between 3 and 5 percent of the employee’s salary for its Czech employees depending on the
employee’s status. Kearney compared the RFE/RL plan with the plan offered by the U.S.


                                                          10

                                               UNCLASSIFIED
                                                UNCLASSIFIED

Department of State (Department) to its overseas employees in the Czech Republic.23 Kearney
found that the Department had provided a 3 percent contribution for its supplemental Czech plan.
However, the Czech Republic had recently undergone a pension reform that increased the
contribution levels allowed. Therefore, based on its research, Kearney concluded that the benefit
offered by RFE/RL was reasonable based on prevailing practice in the Czech Republic.

         Defined Benefit Plan for German and Non-U.S. Citizens

         While headquartered in Munich, Germany, RFE/RL offered a defined benefit plan to its
German and other non-U.S. employees. This plan was established in 1976 and was approved by
the Congress. On June 30, 1995, as part of the move to Prague, Czech Republic, RFE/RL closed
the German defined benefit plan to new entrants.24 When it closed the plan, RFE/RL fully funded
the existing liability by purchasing insurance annuity contract assets using funds from the sale of
its assets in Germany. Because this plan, including the benefit details, was specifically approved
by the Congress, Kearney considered it to be allowable.

         Overseas Severance Plans

        In accordance with local labor law and prevailing practice in the countries in which it
operates, RFE/RL offered severance plans for involuntary terminations covering the Czech
Republic headquarters and 12 additional bureaus. Kearney reviewed the severance plans in place
in each of these countries and confirmed that the policies were in agreement with local labor law
and prevailing practice.

       Czech Severance Policy. RFE/RL offers severance pay to its Czech employees who are
separated involuntarily as a result of a reduction in force or job elimination. Involuntarily
separated employees are compensated based on how long they have worked for RFE/RL.
Kearney compared the RFE/RL severance plan with the severance plan required by Czech labor
code and found the benefit formulas to be in agreement. As a result, Kearney concluded that the
severance pay policy for Czech employees was allowable.

        Worldwide Bureaus. Kearney reviewed the Employment Agreements for each of the
bureaus and compared the benefits offered to the local labor law of the applicable country.
Kearney noted no instances where the severance pay plan offered exceeded the requirements of
local law. As a result, Kearney concluded that all bureau severance plans were reasonable and
allowable.

       Moscow Bureau Severance Payments. Kearney asked RFE/RL officials about any recent
or planned force reductions. RFE/RL officials indicated that there had been a reorganization of

23
   The Department is responsible for establishing compensation for locally employed staff for all Government
agencies under Chief of Mission authority. The Department establishes compensation based on prevailing practice.
Therefore, Kearney used the compensation established by the Department as a benchmark for comparability to
determent whether the RFE/RL benefits were reasonable.
24
   Although closed to new entrants, this plan continues to provide benefits to retirees who were in the plan before it
was closed.
                                                          11

                                                UNCLASSIFIED
                                              UNCLASSIFIED

the Moscow Bureau staff. The reorganization was the result of changes to Russian media law,
which imposed bans on RFE/RL’s medium wave licenses and required RFE/RL to pursue other
avenues for broadcasting not affected by the legislation, such as the Internet. The reorganization
resulted in a reduction of 42 staff between September and December 2012.

         Russian labor law specifies that individuals who are laid off for redundancy are entitled
to a maximum of 5 months of severance pay.25 RFE/RL consulted a multi-national law firm
knowledgeable in Russian labor dismissal protocol before implementing the reduction in force.
The law firm informed RFE/RL that terminating staff under the redundancy clause in Russia may
result in successful legal actions against RFE/RL by the staff. The legal specialists advised
RFE/RL to offer buy-out agreements to the staff. Based on the legal advice received, RFE/RL
offered its affected staff between 4 and 6 months of severance pay.

        RFE/RL management discussed the plans to lay off Russian staff with BBG’s Board of
Governors. RFE/RL did not obtain explicit Board approval for each severance package.26
However, the Board was informed that the packages were created with the assistance of legal
advisors. The Board agreed with the need to implement layoffs and approved an overall amount
that could be used by RFE/RL for severance payments. The severance agreements were
ultimately crafted to avoid lawsuits.

        In May 2013, the Moscow Bureau went through another restructuring. RFE/RL officials
stated that 11 additional staff chose to voluntarily leave and they were offered and accepted
between 4 and 7 months of consideration. RFE/RL and BBG officials were unable to provide
evidence of Board approvals but explained that the consideration agreements were similar in
nature to the original severance agreements and that a law firm had been consulted.

        Kearney concluded that, although the severance and consideration payments offered to
the Moscow Bureau staff were slightly more generous than Russian labor law requirements, the
payments seemed reasonable given RFE/RL’s need to react to the changes in Russian media laws
and to minimize the risk of further financial loss. In addition, BBG’s Board of Governors had
generally approved the severance and consideration payments. Therefore, Kearney concluded
that these payments were allowable.

RFE/RL’s After-Employment Benefits Were Not Fully Funded

        Although Kearney found that the after-employment benefits provided by RFE/RL to its
employees were allowable, two of RFE/RL’s after-employment benefits, the German defined
benefits plan and the post-retirement health and life insurance plan for U.S. citizens and TCNs,
had unfunded liabilities of $88 million (approximately $87 million related to the post-retirement



25
   Labor law requires pay in the amount of a 2-month notice period, 2 months of severance pay, and potentially one
additional month severance pay if an employee has not found new employment.
26
   Details of an OIG inspection of the events surrounding BBG’s review and approval of the Russian severance
plans are in the OIG report Inspection of U.S. International Broadcasting to Russia (ISP-IB-13-50, Sept. 2013).
                                                        12

                                              UNCLASSIFIED
                                                UNCLASSIFIED

health and life insurance plan and $1 million related to the German pension plan) according to
actuarial reports.27

         RFE/RL officials indicated that the amount of the unfunded liability for the
post-retirement health and life insurance plan may be misleading because of how the actuarial
estimate is calculated. The unfunded liability was calculated by an actuary using the best
information available at the time of calculation and based on reasonable assumptions. Because
the liability was an estimated amount based on current financial information and assumptions
such as interest rates and health care costs, the amount of the liability could increase or decrease
over time (for example, the estimated amount of the unfunded liability for the U.S. medical and
life insurance plan as of September 30, 2012, was approximately $120 million and was
approximately $51 million in 2014). Kearney’s actuary explained that Other Postemployment
Benefits28 are not easily estimated because of the nature and timing of the benefits.

        Further, the estimated liability could be lessened if RFE/RL decreased the benefits
provided to its employees. Employers invariably reserve the right to change or cancel benefits in
response to changes in financial conditions or increasing health care costs. For example, RFE/RL
officials stated that the post-retirement health and life insurance plans could be revised at any
time or terminated once all plan assets are exhausted without any liability to RFE/RL. Kearney
reviewed the contracts and noted that the U.S. plan was for a 1-year term and could be canceled
anytime during the contract term with 60 days’ written notice. The overseas plan is for a term of
3 years, at which point it can either be canceled or renewed for another term. As a result,
RFE/RL has a legal right to cancel these plans, releasing RFE/RL from any liability.

        As an alternative, RFE/RL officials stated that RFE/RL could decrease its liability by
increasing the retirees’ share of premium payments for these plans, which it had done.
Specifically, until recent years, RFE/RL paid 100 percent of the premiums for retirees (not
including dependents) in the plan. As of FY 2013, retirees paid between 9 and 15 percent of the
premiums.

        Because of these variables, some RFE/RL officials said that they believed that the assets
set aside for the benefits would be sufficient to provide the post-retirement benefits of current
employees for an extended but not an indefinite period of time. Kearney found that RFE/RL had
sufficient funding to continue the benefit plans for some years; however, there may not be
enough funding to continue in perpetuity. Although the U.S. Government is not legally liable to
fund these plans, the financial position of the U.S. post-retirement health and life insurance plans
and German benefit plans needs to be monitored and assessed to determine the best course of
action in the future.


27
   The U.S. and Czech defined contribution plans do not contribute to this liability, as these plans do not generate a
liability beyond the promise to match employee contributions as service is provided.
28
   “Other Postemployment Benefits” is an accounting concept created by the Government Accounting Standards
Board that is designed to address expenses that entities may or may not be legally bound to pay but do pay as a
moral obligation.

                                                          13

                                                UNCLASSIFIED
                                           UNCLASSIFIED


BBG Did Not Have Sufficient Oversight of RFE/RL

        Although Kearney considered RFE/RL’s after-employment benefits to be generally
allowable according to Federal grant regulations and the grant agreements, Kearney identified
several gaps in BBG’s controls over grantee oversight. Specifically, BBG did not sufficiently
monitor RFE/RL. For example, employees who monitored the grantee were unfamiliar with the
types of after-employment benefits offered by RFE/RL and did not review and approve contracts
over a certain dollar amount. In addition, the grant files were incomplete. Kearney also found
that BBG had not adequately defined roles and responsibilities for groups responsible for
overseeing RFE/RL and that internal communications were not sufficient. Ensuring an
appropriate internal control environment is ultimately the role of the Board of Governors.
Further, BBG did not require that the financial reports from the grantee include details about
unfunded liabilities. Lastly, BBG did not comply with the requirement to perform annual
comparability studies for all types of benefits provided by RFE/RL.

        Grantee Monitoring

        BBG was responsible for monitoring how RFE/RL used BBG funds to ensure RFE/RL
adhered to relevant laws and regulations as well as the terms and conditions specified in the grant
agreement. During its audit of BBG’s FY 2013 financial statements, Kearney identified control
deficiencies related to BBG’s monitoring of grantees.29 Specifically, Kearney found that BBG’s
process for overseeing grantee activities and compliance consisted mainly of maintaining a
binder for each grantee that contained signed grant agreements, amendments, financial plans,
funding requests, payment vouchers, and the monthly financial reports prepared by each grantee.
In the report, Kearney also stated that BBG did not have specific procedures in place for
post-award monitoring to ensure grantees were using Federal awards for allowable costs or to
maintain awareness of audit reports related to its grantees.

        During this audit, Kearney continued to find deficiencies in how BBG monitored
RFE/RL activities. Employees responsible for overseeing the grantee exhibited a general lack of
knowledge about the after-employment benefits offered by RFE/RL to its employees (many of
the benefits had been offered since 1995). While RFE/RL had a number of employees or
consultants who were familiar with the plans and the circumstances surrounding the
establishment of the after-employment benefits, BBG officials involved in the oversight of
RFE/RL could not provide a basic listing of the plan benefits and instead directed Kearney to
RFE/RL officials.

        BBG officials responsible for grant oversight were also not monitoring RFE/RL’s audited
financial statements or actuarial reports to maintain oversight of the grantee’s financial activities.
Had BBG officials reviewed the annual financial statements, the officials would have been aware
of the unfunded liability.



29
  Independent Auditor’s Report on the Broadcasting Board of Governors 2013 Financial Statements (AUD-FM-IB-
14-14, Dec. 2013).
                                                    14

                                           UNCLASSIFIED
                                       UNCLASSIFIED

        BBG’s grant terms state that RFE/RL should provide advance notification of new
contracts exceeding certain thresholds for BBG approval. Although RFE/RL and BBG officials
stated that RFE/RL had provided the required notifications to BBG, BBG was unable to provide
documentation showing that the notification had been acted upon. BBG did not routinely review
and approve contracts as required by the Grant Agreement. For example, the post-retirement
health and life insurance benefit plans were provided by contractors and were updated every 1 to
3 years depending on the plan. In essence, the unfunded liability was reaffirmed each time
RFE/RL signed a contract with the third-party insurance provider to continue the plans. At no
point in this process did BBG request copies of the signed contracts or other pertinent
information relating to the benefits.

        In addition, BBG did not have a sufficient process to ensure that information was
obtained and shared among officials responsible for overseeing RFE/RL to ensure consistent
oversight. According to BBG’s Grantee Handbook, BBG should maintain files that include
information related to the grantees. While BBG maintained grant files that included some
documentation, the documentation was not sufficient to oversee a grantee. For example, the grant
files did not include the following:

          Information related to the after-employment benefit plans. RFE/RL officials stated
           that RFE/RL had provided plan documents to BBG, but BBG was unable to provide
           any of these items.
          The post-retirement health and life plan contract. The post-retirement health and life
           plan costs more than $3 million annually.

        Although the grant files included copies of the grantee’s financial plan and budget
submissions, which demonstrated some review over the amounts requested by RFE/RL, the files
did not include any analyses or data at a detailed level to demonstrate that BBG had performed
sufficient work to ensure that the expenses included in the financial plans and budgets were
allowable.

       BBG attributed a number of these deficiencies to the lack of resources and employee
turnover. According to BBG officials, BBG had experienced a high rate of turnover over the last
few years, especially in the Office of the Chief Financial Officer (OCFO). The grant files should
contain information sufficient to ensure that knowledge is shared among employees and that
documentation is adequate for new employees to be able to perform sufficient oversight.

        In FY 2014, BBG developed a Corrective Action Plan that outlined certain control
improvements for grantee monitoring that would be implemented beginning in March 2014.
BBG intended to review the financial statements more closely and to be more involved in the
financial reporting of RFE/RL. As of May 2014, this plan had not been implemented by any
office in BBG.

       Recommendation 1. OIG recommends that the Broadcasting Board of Governors ensure
       that the employees responsible for monitoring Radio Free Europe/Radio Liberty
                                                15

                                       UNCLASSIFIED
                               UNCLASSIFIED

(RFE/RL) meet with RFE/RL officials to gain a complete understanding of the after-
employment benefits offered.

BBG Response: BBG agreed with this recommendation, stating that it will have
appropriate officials meet with RFE/RL staff to “gain a complete understanding of
RFE/RL’s after-employment benefits.”

OIG Reply: OIG considers the recommendation resolved. This recommendation can be
closed when OIG reviews and accepts documentation showing that BBG officials have
met with RFE/RL officials to gain a complete understanding of after-employment
benefits offered.

Recommendation 2. OIG recommends that the Broadcasting Board of Governors design
and implement procedures to perform routine reviews of Radio Free Europe/Radio
Liberty (RFE/RL) financial activity. At a minimum, these procedures should include
periodic reviews of significant events and transactions and analyses of RFE/RL’s
financial statements and actuarial reports.

BBG Response: BBG agreed with this recommendation. BBG is having an external
contractor assess BBG’s efforts at grants monitoring and will incorporate
recommendations that they receive from the contractor that are “relevant, appropriate,
and feasible.”

OIG Reply: OIG considers the recommendation resolved. This recommendation can be
closed when OIG reviews and accepts documentation showing that BBG has designed
and implemented procedures to routinely review RFE/RL’s financial activities.

Recommendation 3. OIG recommends that the Broadcasting Board of Governors
develop a process to review and approve significant contracts over $350,000 for Radio
Free Europe/Radio Liberty.

BBG Response: BBG partially concurred with the recommendation and stated it was
concerned that additional review or involvement in RFE/RL contracting would be
inconsistent with OMB prohibitions against substantial involvement in grantee
operations. However, BBG concurred with “any recommendation that calls for oversight
within the scope of applicable” Office of Management and Budget regulations.

OIG Reply: OIG considers the recommendation unresolved. OIG notes that BBG’s FY
2012 grant agreement with RFE/RL endorsed BBG’s review of RFE/RL contracts that
exceeded $350,000. In its FY 2013 grant agreement with RFE/RL, the language was
modified to only require RFE/RL to notify BBG about contracts that exceeded $350,000.
OIG believes that the arrangement for BBG to review and approve contracts exceeding
$350,000 is warranted based on the findings in this report. Further, we are not aware of
any OMB prohibition that limits BBG’s oversight of grant funds provided to RFE/RL.
This recommendation can be closed when OIG reviews and accepts documentation

                                        16

                               UNCLASSIFIED
                                        UNCLASSIFIED

       showing that BBG has developed a process to improve oversight of grants funds provided
       to RFE/RL by reviewing significant contracts.

       Recommendation 4. OIG recommends that the Broadcasting Board of Governors
       develop policies and procedures to ensure that information needed to oversee grantees is
       maintained in the grant files and to ensure that the relevant information is available for at
       least 7 years.

       BBG Response: BBG agreed with this recommendation, stating that it will “develop and
       implement policies and procedures to ensure the integrity of the grant files.”

       OIG Reply: OIG considers the recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation showing that BBG has developed
       policies and procedures to ensure that grant files are complete and accessible.

       BBG Roles and Responsibilities and Internal Communications

        The Grantee Handbook did not assign certain oversight responsibilities to specific offices
within BBG. The Handbook states that OCFO was responsible for reviewing and approving
financial plans and reviewing monthly reports of grant payments. However, many of the
responsibilities for overseeing grantees were included in a general section labeled “BBG
responsibilities.” No details were provided on which office within BBG was responsible for the
grant agreement, the grant files, the tracking of payments, general monitoring, or periodic
reviews.

        Kearney found that OCFO had been unofficially performing some of the monitoring
duties. However, the employee within OCFO who was monitoring RFE/RL had not been
formally designated as a grants analyst, and his official duties did not include the requirement to
oversee RFE/RL. The employee also had not been delegated authority to obtain information from
RFE/RL and had to obtain the documents required to oversee the grantee from other parties
within BBG. In addition, the employee said that he did not feel that he had the authority to go to
RFE/RL to obtain additional information.

        Further, the BBG Board of Governors was also involved in the grants monitoring
process; for example, the Board reviewed and approved budgets and financial plans and worked
with the grantees on various initiatives. However, the Handbook did not provide clear
information on the differences between the roles of the Board and OCFO for fiduciary oversight.
In addition, internal communication between the Board and OCFO was not always sufficient to
ensure that the employee monitoring the grantee had sufficient information. For example,
Kearney found that the Board had approved the severance benefits for the RFE/RL Russian
employees in FY 2012. However, the employee monitoring the grantee did not have detailed
information about the approved severance benefits, even though the employee was responsible
for reviewing expenditures for allowability within the provisions of the grant agreement.



                                                17

                                        UNCLASSIFIED
                                        UNCLASSIFIED

        Without a clear policy establishing roles and responsibilities for grantee oversight and
open lines of communication between various groups within BBG, BBG cannot effectively
monitor its grantees. Because of the Board’s significant involvement in the oversight of the
grantees, it has a responsibility to ensure that the roles and responsibilities are defined and
internal communications are sufficient.

       Recommendation 5. OIG recommends that the Broadcasting Board of Governors (BBG)
       review and revise its policies and procedures to clearly define the roles and
       responsibilities of the officials within BBG who are responsible for monitoring and
       overseeing Radio Free Europe/Radio Liberty.

       BBG Response: BBG agreed with this recommendation, stating that it will “review and
       revise its policies and procedures to define the roles and responsibilities of agency
       officials responsible for monitoring and overseeing RFE/RL.”

       OIG Reply: OIG considers the recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation showing that BBG has revised its
       policies and procedures to define the roles and responsibilities of BBG officials that
       monitor and oversee RFE/RL.

       Recommendation 6. OIG recommends that the Broadcasting Board of Governors (BBG)
       formally designate a grants analyst to monitor Radio Free Europe/Radio Liberty
       (RFE/RL). As part of the designation, BBG should ensure that the grants analyst’s
       responsibilities are clearly communicated to that employee. Further, BBG should ensure
       that authority is formally provided to the grants analyst so that the analyst can obtain
       needed information from RFE/RL.

       BBG Response: BBG agreed with this recommendation, stating that it will “formally
       designate a grants analyst to monitor RFE/RL and provide such authority as needed.” The
       analyst will “work with grantees to develop” procedures for “monitoring and processing
       financial information.”

       OIG Reply: OIG considers the recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation showing that BBG formally
       designated a grants analyst for RFE/RL and that the grants analyst duties were clearly
       communicated and authority was formally provided.

       Recommendation 7. OIG recommends, once a grants analyst has been designated, that
       the Broadcasting Board of Governors ensure that the grants analyst obtains appropriate
       training related to grants monitoring.

       BBG Response: BBG agreed with this recommendation, stating that it will “provide
       additional training related to grants monitoring to the designated grants analyst.”



                                                18

                                        UNCLASSIFIED
                                        UNCLASSIFIED

       OIG Reply: OIG considers the recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation showing that BBG provided
       additional training to the grants analyst.

       Recommendation 8. OIG recommends, once a grants analyst has been designated, that
       the Broadcasting Board of Governors implement an effective communication
       methodology to ensure that information is shared between the Board of Governors and
       the grants analyst.

       BBG Response: BBG agreed with this recommendation, stating that it will “implement a
       communications methodology to ensure that relevant information is shared between the
       Board of Governors and the grants analyst.”

       OIG Reply: OIG considers the recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation showing that BBG implemented an
       effective communication methodology to ensure that information is shared between the
       Board and the grants analyst.

       Financial Reporting Requirements

        BBG requires RFE/RL to submit an annual budget to BBG. In addition, the grant
agreement requires RFE/RL to submit periodic financial plans to BBG for approval. However,
the budget requests and financial plans submitted by the grantee include information only on
current year needs or expenditures. Information on unfunded liabilities was not included in the
budget or financial planning documents. Long-term liabilities are a significant issue that needs to
be considered by both RFE/RL and BBG and discussed during budget or planning meetings.
Reviewing only current year requests during the annual budget process limits BBG
management’s ability to fully understand the financial position of RFE/RL. To effectively
oversee RFE/RL, BBG should require additional information during the budget and financial
planning processes to obtain details on unfunded liabilities.

       Recommendation 9. OIG recommends that the Broadcasting Board of Governors (BBG)
       design detailed annual budget submission formats and financial planning documents that
       will allow BBG to obtain details on unfunded liabilities at Radio Free Europe/Radio
       Liberty.

       BBG Response: BBG agreed with this recommendation, stating that it will “work with
       RFE/RL on a detailed annual budget submission format and financial planning
       documents that will allow BBG to obtain details on unfunded liabilities at RFE/RL.”

       OIG Reply: OIG considers the recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation showing that BBG developed
       budget submission and financial planning documents that will allow BBG to obtain
       details on RFE/RL unfunded liabilities.


                                                19

                                        UNCLASSIFIED
                                                 UNCLASSIFIED


           Comparability Studies

        According to the Grantee Handbook, OCFO “will conduct a comparability study each
year to verify compensation plans.” Comparability studies are performed to determine how
wages and benefits provided to employees within an organization compare with wages and
benefits paid for similar work in other organizations. Comparability studies are a tool that can be
used by a Federal agency to detect unallowable costs at a grantee. Specifically, BBG used the
comparability studies to determine whether RFE/RL’s compensation was in alignment with
Federal grant regulations. Without this type of analysis, oversight officials would not have
enough evidence to determine the reasonableness of after-employment benefit plans.

       Kearney requested copies of past studies performed by BBG that compared RFE/RL’s
wages and benefits with those provided to U.S. Government employees. Kearney found that
BBG did not consistently or routinely review RFE/RL’s compensation and benefits package to
ensure compliance with the grant agreements, as was required by the Grantee Handbook. The
most recent comparability study was conducted in 2007.30 Since 2007, some benefit plans had
changed at RFE/RL.

        In addition, Kearney found that BBG considered after-employment benefits provided
only to RFE/RL’s U.S. employees during the comparability studies that were performed.
Benefits provided to overseas staff were not considered. Non-U.S. citizen compensation plans
were a substantial part of the grantee’s after-employment benefits.

        Conducting comparability studies is a time-intensive process. It requires working
knowledge of after-employment benefits, salary structures, Federal laws and regulations, and the
prevailing practices within the countries of operations. Without timely analyses, BBG may not
be in a position to proactively prevent or detect unallowable costs or inefficiencies. Not
performing this type of study is a gap in the performance of oversight responsibilities.

           Recommendation 10. OIG recommends that the Broadcasting Board of Governors
           develop and implement a standardized process to produce effective comparability studies.
           The process should ensure that the studies are performed at prescribed intervals, include
           all benefits offered by Radio Free Europe/Radio Liberty to its domestic and overseas
           employees, and contain data and analyses that support conclusions.

           BBG Response: BBG agreed with this recommendation, stating that it will “enhance and
           standardize its process to produce effective comparability studies, and ensure that they
           are performed at prescribed intervals.”

           OIG Reply: OIG considers the recommendation resolved. This recommendation can be
           closed when OIG reviews and accepts documentation showing that BBG developed and
           implemented a standardized process to produce comparability studies.



30
     Prior studies had been done in 2003, 2000, and 1995.
                                                            20

                                                 UNCLASSIFIED
                                               UNCLASSIFIED


Inadequate Oversight of Grantee Benefits Could Lead to Negative Impacts for the Federal
Government and Taxpayers

        Because it was not effectively monitoring the financial condition of RFE/RL, BBG was
not appropriately managing risks. As of September 30, 2013, RFE/RL’s unfunded liability
related to after-employment benefits was approximately $88 million. The liability does not
represent a short-term problem but rather a potential long-term issue that needs to be considered
in planning for the future.

        RFE/RL’s unfunded liability does not represent a legal liability to the Federal
Government. In fact, RFE/RL officials stated that the Federal Government provided RFE/RL
with funding in 1995 to cover the future costs of the after-retirement plans. The funds were to be
invested in assets, and those assets, along with the income earned on the assets, were to be used
to fund the benefits.31 The Federal Government, through OMB, indicated that no future funding
for these benefits would be provided by the Federal Government. Although RFE/RL officials do
not want to discontinue the benefits, RFE/RL officials stated that RFE/RL had no expectations
that the Federal Government would provide additional resources to fund the liability in the future
if the current plan assets were fully depleted. 32 The officials further stated that RFE/RL could
abolish the plans or increase participants’ contributions to eliminate or decrease the amount of
the liability related to the U.S. medical and life insurance plan. According to the officials, most
(but not all) of the retirees would have other health care benefits that they could rely on instead,
such as Medicare.

        Although there was no expectation on the part of RFE/RL management for the Federal
Government to provide additional resources, if abolishing the post-retirement health and life
insurance plans previously provided or significantly increasing retiree premiums were to become
necessary, the effect could be that the Federal Government may elect to provide additional
funding to avoid the unfavorable outcome of discontinuing these benefits. In addition, if RFE/RL
had to cut benefits or could not offer benefits to new employees, employee morale for the
remaining employees could be negatively impacted.

       As for the smaller unfunded liability related to the German defined benefit pension plan
(approximately $1 million for 2013), RFE/RL officials said that if the insurance plans that were
purchased by RFE/RL for its employees in Germany were not sufficient to provide all of the
retirement benefits promised, RFE/RL would be unable to provide additional funding. According
to RFE/RL officials, the Government of Germany covers pension plan shortfalls that occur,
which would include any potential shortfalls related to the former RFE/RL employees. However,
allowing the Government of Germany to cover the unfunded costs of pension benefits provided
by an affiliate of the U.S. Government to former employees who are German citizens may result
in negative consequences to the Federal Government’s reputation or its political relationships.

31
  Since 1995, no appropriated funds have been used to fund the post-retirement health and life insurance plans.
32
  According to RFE/RL officials, if RFE/RL were required to expand operations it might need to hire additional
employees overseas. The Government did not anticipate an increase in staff when it provided assets to fund the post-
retirement benefits. Therefore, RFE/RL officials indicated that RFE/RL would consider requesting money to fund
post-retirement benefits for additional employees hired due to a required expansion of services.
                                                        21

                                               UNCLASSIFIED
                                       UNCLASSIFIED

Therefore, the Federal Government may elect to provide additional funding for this liability as
well.




                                               22

                                       UNCLASSIFIED
                                        UNCLASSIFIED


                                 List of Recommendations
Recommendation 1. OIG recommends that the Broadcasting Board of Governors ensure that the
employees responsible for monitoring Radio Free Europe/Radio Liberty (RFE/RL) meet with
RFE/RL officials to gain a complete understanding of the after-employment benefits offered.

Recommendation 2. OIG recommends that the Broadcasting Board of Governors design and
implement procedures to perform routine reviews of Radio Free Europe/Radio Liberty (RFE/RL)
financial activity. At a minimum, these procedures should include periodic reviews of significant
events and transactions and analyses of RFE/RL’s financial statements and actuarial reports.

Recommendation 3. OIG recommends that the Broadcasting Board of Governors develop a
process to review and approve significant contracts over $350,000 for Radio Free Europe/Radio
Liberty.

Recommendation 4. OIG recommends that the Broadcasting Board of Governors develop
policies and procedures to ensure that information needed to oversee grantees is maintained in
the grant files and to ensure that the relevant information is available for at least 7 years.

Recommendation 5. OIG recommends that the Broadcasting Board of Governors (BBG) review
and revise its policies and procedures to clearly define the roles and responsibilities of the
officials within BBG who are responsible for monitoring and overseeing Radio Free
Europe/Radio Liberty.

Recommendation 6. OIG recommends that the Broadcasting Board of Governors (BBG)
formally designate a grants analyst to monitor Radio Free Europe/Radio Liberty (RFE/RL). As
part of the designation, BBG should ensure that the grants analyst’s responsibilities are clearly
communicated to that employee. Further, BBG should ensure that authority is formally provided
to the grants analyst so that the analyst can obtain needed information from RFE/RL.

Recommendation 7. OIG recommends, once a grants analyst has been designated, that the
Broadcasting Board of Governors ensure that the grants analyst obtains appropriate training
related to grants monitoring.

Recommendation 8. OIG recommends, once a grants analyst has been designated, that the
Broadcasting Board of Governors implement an effective communication methodology to ensure
that information is shared between the Board of Governors and the grants analyst.

Recommendation 9. OIG recommends that the Broadcasting Board of Governors (BBG) design
detailed annual budget submission formats and financial planning documents that will allow
BBG to obtain details on unfunded liabilities at Radio Free Europe/Radio Liberty.

Recommendation 10. OIG recommends that the Broadcasting Board of Governors develop and
implement a standardized process to produce effective comparability studies. The process should
ensure that the studies are performed at prescribed intervals, include all benefits offered by Radio
                                                23

                                        UNCLASSIFIED
                                      UNCLASSIFIED

Free Europe/Radio Liberty to its domestic and overseas employees, and contain data and
analyses that support conclusions.




                                              24

                                      UNCLASSIFIED
                                            UNCLASSIFIED


                                                                                                Appendix A
                                      Scope and Methodology
       The objective of this audit was to determine to what extent costs related to Radio Free
Europe/Radio Liberty’s (RFE/RL) after-employment benefits were allowable according to
Federal grant regulations and the grant agreement. An external audit firm, Kearney & Company,
P.C. (Kearney), acting on behalf of the Office of Inspector General (OIG), performed this audit.

        Kearney conducted this performance audit from January to April 2014 in Washington,
D.C. Kearney planned and performed this audit in accordance with requirements in the
Government Accountability Office’s Government Auditing Standards. Those standards require
that Kearney plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for the findings and conclusions based on the audit objectives. Kearney believes
that the evidence obtained provides a reasonable basis for the findings and conclusions based on
the audit objectives.

        To obtain background information for this audit, Kearney researched and reviewed
Federal grant regulations, including Office of Management and Budget (OMB) Circulars1 and
the United States Code. For example, Kearney reviewed provisions of Title 5 of the United
States Code2 for Federal after-employment benefits and the International Broadcasting Act of
1994.3 In addition to laws and regulations, Kearney reviewed the audited financial statements for
RFE/RL and the Broadcasting Board of Governors (BBG). Further, Kearney reviewed the grant
agreement that governs the relationship between BBG and RFE/RL and budget and financial
planning documentation. To understand after-employment benefits in overseas countries,
Kearney reviewed employment laws and prevailing practices for after-employment benefits in
countries in which RFE/RL operates.

        Kearney met with key RFE/RL personnel to gain an understanding of the after-
employment benefit plans offered to employees. For example, Kearney obtained information on
the circumstances surrounding the establishment of the after-employment benefit plans, the
various plans offered, computations of each plan’s benefit, plan eligibility requirements, annual
contributions required by RFE/RL, and the long-term impact of each plan on RFE/RL’s
operations. Kearney met with key BBG personnel within the Office of the Chief Financial
Officer and the Office of Budget to determine the officials’ understanding of the after-
employment benefits offered by RFE/RL. Kearney also gained an understanding of BBG’s
policies and procedures for monitoring grantees, including procedures performed to ensure that
grantees complied with the grant agreement and other Government guidance. Further, Kearney
gained an understanding of the annual budget and financial planning process. Kearney also asked
BBG officials about their understanding of the long-term impact of RFE/RL’s after-employment
benefits.

1
  As of December 2013, Title 2 of the Code of Federal Regulations superseded OMB Circulars A-21, A-50, A-87,
A-89, A-102, A-110, A-122, A-133. During the audit, Kearney reviewed both OMB Circulars and the Code of
Federal Regulations for guidance.
2
  5 U.S.C. pt. III, subpt. G, ch. 55, 84, 87, and 89.
3
  Pub. L. No. 103-236, §§ 308 and 315, “International Broadcasting Act of 1994.”
                                                      25

                                            UNCLASSIFIED
                                           UNCLASSIFIED



        To draw conclusions on the allowability of the after-employment benefit plans, Kearney
obtained sufficient audit evidence from both BBG and RFE/RL to compare the after-employment
benefits provided by RFE/RL with benefits received by Federal Government employees or local
labor laws and prevailing practices (depending on the plan). Kearney reviewed the allowability
of the after-employment benefits as of the establishment of each of the plans in 1995 and as of
January 2014, in accordance with current laws and regulations. Kearney engaged an actuarial
specialist to assist in evaluating the benefit plans offered by RFE/RL. Kearney’s actuary
reviewed actuarial reports related to the closed German defined benefit plan and the post-
retirement health and life insurance plan. Additionally, the actuarial specialist provided an expert
analysis to substantiate claims made by RFE/RL relating to its after-employment benefit plans.
Specifically, the actuary assessed the aggregation of all RFE/RL after-employment benefit plans
and made a determination on the comparability of the benefits offered to Federal Government
employees under Title 5 of the United States Code.

Prior OIG Reports

        In FY 2014, OIG reported4 a material weakness in internal control related to BBG’s
management of its grantees. Specifically, although BBG was responsible for monitoring how its
grantees used BBG funds to ensure that grantees adhered to relevant laws and regulations as well
as the terms and conditions specified in the grant agreements, the auditors identified numerous
instances where BBG did not sufficiently monitor its grantees.

        In FY 2013, OIG reported5 on RFE/RL’s operations in Moscow and provided
recommendations relating to severance benefits paid to Russian citizens. Severance benefits were
paid to more than 40 staff because of the curtailment of broadcasting activities in Moscow,
Russia, and the inspection identified poor communication and lack of sufficient oversight
surrounding the payments.

Use of Computer-Processed Data
         The audit team used computer-processed data from RFE/RL to gain an understanding of
after-employment benefits offered. Specifically, Kearney obtained listings of employees enrolled
in or eligible for the various after-employment benefit plans from RFE/RL’s Human Resource
Information System. Kearney did not, however, perform any testing over controls for the system
or any further procedures to ensure the accuracy of the data. Kearney relied on audited financial
statements and actuarial reports for the purposes of unfunded liability balances, contribution
payments, and employee counts. Based on how the data would be used during the audit, Kearney
believes that the data were sufficiently reliable for its needs.




4
  Independent Auditor’s Report on the Broadcasting Board of Governors 2013 Financial Statements (AUD-FM-IB-
14-14, Dec. 2013).
5
  Inspection of U.S. International Broadcasting to Russia (ISP-IB-13-50, Sept. 2013).
                                                    26

                                           UNCLASSIFIED
                                      UNCLASSIFIED


Work Related to Internal Controls
        Kearney performed steps to assess the adequacy of internal controls related to the areas
audited. Specifically, Kearney gained an understanding of BBG controls over the annual grantee
budget submission, grantee monitoring, and comparability studies for after-employment benefits.
Kearney gained an understanding of RFE/RL controls relating to the annual budget submission
process, grant agreement compliance, and after-employment benefit reviews, including uses of
local labor attorneys. Results of work performed over internal controls during the audit are
detailed in the Audit Results section of the report.




                                               27

                                      UNCLASSIFIED
                                            UNCLASSIFIED


                                                                                               Appendix B

                     Excerpts From Title 5 of the United States Code
The following sections from Title 5 of the United States Code were used as the basis for
Kearney’s analysis of the benefits provided by Radio Free Europe/Radio Liberty to its U.S.
employees.

Table 1. Sections of Title 5, Part III of the United States Code Considered During Audit
 Subpart G, Chapter 84, Subchapter II: Federal Employees Retirement System - Computation of
 Annuity
 5 USC §8415: “Except as otherwise provided in this section, the annuity of an employee retiring under
 this subchapter is 1 percent of that individual's average pay multiplied by such individual's total service.”
 Subpart G, Chapter 84, Subchapter III: Federal Employees Retirement System - Employing
 Agency Contributions (for the Defined Contribution Plan)
 5 USC §8432: “The amount contributed …by an employing agency with respect to a contribution of an
 employee or Member during any pay period shall be the amount equal to the sum of (i) such portion of
 the total amount of the employee's or Members' contribution as does not exceed 3% of such employee's
 or member's basic pay for such period; and (ii) one-half of such portion of the amount of the employee's
 or Member's contribution as exceeds 3%, but does not exceed 5%, of such employee's or Member's basic
 pay for such period.”
 Subpart G, Chapter 89: Government Contributions
 5 USC §8906 (b)(1): “Except as provided paragraph (2)…, the biweekly Government contribution for
 health benefits for an employee or annuitant enrolled in a health benefits plan under this chapter is
 adjusted to an amount equal to 72 percent of the weighted average under subsection (a)(1)..., as
 applicable...for an annuitant, the adjustment begins on the first day of the first period of each year for
 which an annuity payment is made. (2) the biweekly Government contribution for an employee or
 annuitant enrolled in a plan under this chapter shall not exceed 75 percent of the subscription charge."
 Subpart G, Chapter 87: Government Contributions
 5 USC §8707 (b)(1): “...whenever life insurance continues after an employee retires on an immediate
 annuity...deductions for insurance shall be withheld from the employee's annuity or compensation,
 except that, in any case in which the insurance is continued as provided in section 8706 (b)(3)(A) of this
 title, the deductions shall not be made of the month after the calendar month in which the employee
 becomes 65 years of age.”
 Subpart D, Chapter 55, Subchapter IX: Severance Pay and Back Pay
 5 USC §5595: “severance pay consists of (1) a basic severance allowance computed on the basis of 1
 week's basic pay at the rate received immediately before separation for each year of civilian service up
 to and including 10 years for which severance pay has not been received under this or any other
 authority and 2 weeks' basic pay at rate for each year of civilian service beyond 10 years for which
 severance pay has not been received under this or any other authority; and (2) an age adjustment
 allowance computed on the basis of 10 of the total basic severance allowance for each year by which the
 age of the recipient exceeds 40 years at the time of separation.”




                                                     28

                                            UNCLASSIFIED
                                     UNCLASSIFIED


                                                                                                      Appendix C
             Broadcasting Board of Governors Response



Bmadcasting Board ofGovemor.1·
lNTERNATJONAL BROADCASTING BUH.EAU

                                                     August 19, 2014

Mr. Norman P. Brown
Assistant Inspector General for Audits
Office oflnspector General
U.S. Department of State

Dear Mr. Brown:

Thank you for the opportunity to comment on the draft report "Audit of Radio Free
Europe/Radio Liberty After-Employment Benefits" (AUD-FM-14-.XX) dated July 2014. We
appreciate having the benefit of the findings of Kearney & Company, P.C. pursuant to this audit.

Overall, the BBG concurs with all of the recommendations in the report, with the exception of
Recommendation 3, for which we would like to withhold full concurrence pending further
analysis. At this time, we have some reservations about the possible unforeseen consequences of
agreeing to review and approve significant contracts over $350,000 for Radio Free Europe/Radio
Liberty, and would li ke to consult further with RFEIRL about the breadth and scope of their
current contracting efforts- including for more routine purchases of office and media equipment
and supplies. With respect to the remaining recommendations, the agency agrees that it should
have greater involvement in monitoring RFE/RL' s financial condition and after-employment
plans, and wi ll begin compliance activity by meeting with RFEIRL officials to gain a complete
understanding of these benefits; formally designate a grants analyst to monitor Radio Free
Europe/Radio Liberty (RFEIRL); and clearly define the roles and responsibilities of the officials
within BBG who are responsible for monitoring and overseeing RFE/RL.

In addition, the agency is in the process of examining and remodeling its grants monitoring
program. Under the agency' s current contract with KPMG, the company will provide
recommendations on restructuring this program. We hope to begin review of these
recommendations near the beginning of FY 2015.
                                                                            [Redacted] (b) (6)
For additional information, please contact Ms. Deborah Tate at (202) 203-             , and include
[Redacted] (b) (6)@bbg.gov in all correspondence.




                                                     Andre Mendes

Enclosure: As Stated




                                                29

                                     UNCLASSIFIED
                                    UNCLASSIFIED




Recommendations

Recommendation 1. OIG recommends that the Broadcasting Board of Governors ensure that the
employees responsible for monitoring Radio Free Europe/Radio Liberty (RFEIRL) meet with
RFEIRL officials to gain a complete understanding of the after-employment benefits offered.

BBG Response: Concur. Appropriate BBG officials will meet with RFEIRL staff to gain a
complete understanding ofRFEIRL's after-employment benefits.

Recommendation 2. OIG recommends that the Broadcasting Board of Governors design and
implement procedures to perform routine reviews of Radio Free Europe/Radio Liberty (RFEIRL)
financial activity. At a minimum, these procedures should include periodic reviews of significant
events and transactions and analyses of RFEIRL ' s financial statements and actuarial reports.

BBG Response: Concur. Pending the receipt of recommendations on grants monitoring
from KPMG, BBG will work with RFEIRL to initiate any additional recommended actions
to review fmancial transactions regularly, incorporating recommendations that we will be
receiving from the KPMG study as relevant, appropriate, and feasible.

Recommendation 3. OIG recommends that the Broadcasting Board of Governors develop a
process to review and approve significant contracts over $350,000 for Rad io Free Europe/Radio
Liberty.

BBG Response: Concur in Part. BBG will comply with the express language of our grant
agreements, including section VI.fwhich states "Unless otherwise approved by BBG,
Grantee shall provide five (5) days advance notification of any new contracts exceeding
U.S. $350,000 and any new leases exceeding U.S. $200,000." We concur with this
recommendation to the extent that it is consistent with our grant agreement and our
obligations under the relevant OMB circulars, and does not otherwise run afoul of OMB
prohibitions against substantial involvement. We are concerned that reviewing and
approving routine contracts would be inconsistent with OMB regulation and general grant
principles. We do concur with any recommendation that calls for oversight within the
scope of applicable OMB regulations.

Recommendation 4. OIG recommends that the Broadcasting Board of Governors develop
policies and procedures to ensure that information needed to oversee grantees is maintained in
the grant files and to ensure that the relevant information is available for at least 7 years.

BBG Response: Concur. BBG will develop and implement policies and procedures to
ensure the integrity of the grant files.

Recommendation 5. OIG recommends that the Broadcasting Board of Governors (BBG) review
and revise its policies and procedures to clearly define the roles and responsibilities of the
officials within BBG who are responsible for monitoring and overseeing Radio Free
Europe/Radio Liberty.




                                               30

                                    UNCLASSIFIED
                                     UNCLASSIFIED




BBG Response: Concur. BBG will review and revise its policies and procedures to define
the roles and responsibilities of agency officials responsible for monitoring and overseeing
RFEIRL.

Recommendation 6. OIG recommends that the Broadcasting Board of Governors (BBG)
formally designate a grants analyst to monitor Radio Free Europe/Radio Liberty (RFEIRL). As
part of the designation, BBG should ensure that the grants analyst's responsibilities are clearly
communicated to that employee. Further, BBG should ensure that authority is formally provided
to the grants analyst so that the analyst can obtain needed information from RFEIRL.

BBG Response: Concur. BBG will formally designate a grants analyst to monitor RFEIRL
and provide such authority as needed to ensure that the analyst can obtain needed
information from RFE!RL. The analyst will work with grantees to develop Standard
Operating Procedures for monitoring and processing financial information.

Recommendation 7. OIG recommends, once a grants analyst has been designated, that the
Broadcasting Board of Governors ensure that the grants analyst obtains appropriate training
related to grants monitoring.

BBG Response: Concur. BBG will provide appropriate training related to grants
monitoring to the designated grants analyst.

Recommendation 8. OIG recommends, once a grants analyst has been designated, that the
Broadcasting Board of Governors implement an effective communication methodology to ensure
that information is shared between the Board of Governors and the grants analyst.

BBG Response: Concur. BBG will implement a communications methodology to ensure
that relevant information is shared between the Board of Governors and the grants analyst.

Recommendation 9. OIG recommends that the Broadcasting Board of Governors (BBG) design
detailed annual budget submission formats and financial planning documents that will allow
BBG to obtain details on unfunded liabilities at Radio Free Europe/Radio Liberty.

BBG Response: Concur. BBG will work with RFEIRL on a detailed annual budget
submission format and financial planning documents that will allow BBG to obtain details
on unfunded liabilities at RFEIRL.

Recommendation 10. OIG recommends that the Broadcasting Board of Governors develop and
implement a standardized process to produce effective comparability studies. The process should
ensure that the studies are performed at prescribed intervals, include all benefits offered by Radio
Free Europe/Radio Liberty to its domestic and overseas employees, and contain data and
analyses that support conclusions.

BBG Response: Concur. BBG will enhance and standardize its process to produce effective
comparability studies, and ensure that they are performed at prescribed intervals.




                                                 31

                                     UNCLASSIFIED
             UNCLASSIFIED


                                           Appendix D
Radio Free Europe/Radio Liberty Response




                   32

             UNCLASSIFIED
